January 14, 2008

TIMOTHY C. HANEY
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT: Audit Report – The Postal Service’s Violence Prevention and Response
         Programs in Four Northeast Area Performance Clusters
         (Report Number HM-AR-08-005)

This report presents the results of the U.S. Postal Service Office of Inspector General’s
(OIG) self-initiated audit of the Postal Service’s violence prevention and response
programs in four Northeast Area Performance Clusters (PC) (Project Number
06YG044HM001). The Northeast Area was one of five areas judgmentally selected
from the nine Postal Service areas of operation.1 Our overall objective was to
determine if the violence prevention and response programs in the Albany, Boston,
Massachusetts, and New Hampshire/Vermont PCs effectively reduced the potential for
violence. Specifically, we determined whether (1) the PCs implemented required
controls (policies and procedures) to reduce the potential for violence and (2) oversight
of the workplace violence prevention program at the area and PC levels was adequate.

This report is the fifth in a series of six reports we will issue on the violence prevention
and response programs in 15 PCs. The sixth report will summarize the conditions
reported in the 15 PCs, management’s actions to correct the conditions, and issues with
nationwide impact.

We concluded the Albany, Boston, Massachusetts, and New Hampshire/Vermont PCs
established threat assessment teams (TAT) and took some positive steps to reduce the
potential for violence such as conducting climate assessments and closely
communicating with union representatives and Employee Assistance Program (EAP)
consultants. However, the PCs’ violence prevention and response programs may not
be fully effective in reducing the potential for violence because the district and plant
managers (PC managers) and the TATs did not implement many of the required
policies and procedures to reduce the potential for violence. In addition, Northeast Area
and PC managers did not provide adequate oversight of the violence prevention and
response programs to ensure compliance with policies and procedures.

This report includes 16 recommendations to help the Northeast Area, its PCs, and its
TATs improve the effectiveness of the violence prevention and response program.
Implementation of these recommendations will also improve the safety and security of


1
    The five areas reviewed were Capital Metro, Northeast, Pacific, Southeast, and Southwest.
The Postal Service’s Violence Prevention and                          HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

employees and prevent harm to the Postal Service’s reputation (goodwill). We will
report these non-monetary impacts in our Semiannual Report to Congress.

Management agreed to implement all 16 recommendations, and the actions taken or
planned should correct the issues identified. Management’s comments and our
evaluation of these comments are included in the report.

                                           Background
The Postal Service has long recognized the importance of ensuring the safety of its
employees by creating and maintaining a work environment that is violence-free. In
addition, the agency is obligated under the Occupational Safety and Health
Administration’s (OSHA) “General Duty” clause to provide a safe and healthful working
environment for all workers covered by the Occupational Safety and Health Act (the
OSH Act) of 1970. To prevent violence in the workplace and minimize the potential risk
the Postal Service established the following criteria:

    •   The Administrative Support Manual (ASM) requires security control officers or
        their designees to conduct annual facility security reviews.

    •   The Joint Statement on Violence and Behavior in the Workplace (Joint
        Statement) signed by union and management association presidents and the
        Deputy Postmaster General in 1992 states the Postal Service will not tolerate
        violent and inappropriate behavior by anyone, at any level. (See Appendix B for
        a copy of the Joint Statement.)

    •   The Threat Assessment Team Guide (Publication 108) requires TATs to assess
        and respond to violent and potentially violent situations. The guide outlines six
        strategies designed to assist the TATs: (1) selection, (2) security,
        (3) communication of policy, (4) environment and culture, (5) employee support,
        and (6) separation.

The strategies are an integral part of the Postal Service’s Strategic Transformation Plan
2006 - 2010 which identifies engaging and motivating the workforce as one of its goals.
A key transformation strategy for achieving this goal is maintaining a safe work
environment for all employees. This audit reviewed the implementation of three of the
six strategies — security, communication of policy, and environment and culture.

                         Objectives, Scope, and Methodology
We discuss our objectives, scope, and methodology in detail in Appendix C.

                                     Prior Audit Coverage

We discuss prior audit coverage in Appendix D.



                                               2
The Postal Service’s Violence Prevention and                                           HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

                                                  Results
The following summarizes our findings and recommendations regarding the Albany,
Boston, Massachusetts, and New Hampshire/Vermont PCs’ violence prevention and
response programs. Additional details regarding our findings are in Appendix E.

Security Strategy — Ensure appropriate safeguards for employees, customers,
and property.

The four PCs may not have ensured that facilities had appropriate security safeguards
in place. The Albany, Boston, Massachusetts, and New Hampshire/Vermont PC
security coordinators stated that corrective actions were taken on the security and
safety deficiencies identified at the facilities within the four PCs in fiscal year (FY) 2006.
However, the coordinators did not maintain documentation regarding the actions taken
or how the actions corrected the deficiencies.

Appropriate security safeguards assist in preventing violence in the workplace. One
such safeguard is preventing unauthorized individuals from gaining access to postal
facilities by securing doors. The FY 2006 Voice of the Employee (VOE)2 Survey results
for the Albany, Boston, Massachusetts, and New Hampshire/Vermont PCs indicate that
numerous employees were concerned that unauthorized individuals could gain access
to facilities in their PCs. (See Appendices F, G, H, and I for additional details regarding
VOE Survey responses.)

In FY 2007, the Northeast Area security coordinator took corrective action to ensure
documentation was maintained and therefore we have no recommendations in this report
regarding security.

Communication of Policy Strategy — Consistently communicate and enforce
Postal Service policy regarding violent and inappropriate behavior.

Zero Tolerance Policy Postings Could be Improved

The four PCs disseminated copies of their current local zero tolerance policy to all PC
employees in FY 2006 through stand-up talks and new employee orientation classes.
However, management could improve their procedures for posting their zero tolerance
policy, which sometimes was not posted at all, was not visible, or was not signed by the
lead plant managers at some of the facilities we visited.

Properly posting the zero tolerance policy may reduce the potential for violence in the
workplace. For example, posting the current policy makes important information
available on the workroom floor, where employees may need it most. In addition, when


2
  The VOE Survey is a data collection instrument used to obtain information from career employees regarding how
they feel about their workplace environment. The Postal Service uses this information in a number of ways, to
include ensuring employees feel safe in their workplaces.


                                                        3
The Postal Service’s Violence Prevention and                                           HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

both PC managers sign the zero tolerance policy it reaffirms to all employees the
managers’ commitment to a violence free workplace.

Recommendations

We recommend the Vice President, Northeast Area Operations:

    1. Direct the Albany, Boston, Massachusetts, and New Hampshire/Vermont
       Performance Cluster managers to implement an internal control to ensure their
       current zero tolerance policy is properly posted in all facilities, at least annually.
       For example, facility managers could provide written annual certifications to the
       performance cluster threat assessment teams.

    2. Direct the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Performance Cluster
       managers to update their zero tolerance policies to include the lead plant
       managers’ signature.

Workplace Violence Awareness Training Needed for Some Employees

The xxxxxxxxxxxxxxxxxxxxxxxx PC and Human Resources (HR) managers ensured
most employees and TAT core members3 received the required training. The xxxxxx
and xxxxxxxxxxxxxxxxxxxxx PC and HR managers also ensured most employees
received the training, but they did not ensure all TAT core members received the
required 2-day TAT orientation class training. In addition, none of the four HR
managers ensured that all managers, supervisors, and 204b supervisors4 received the
required 8-hour (one-time) workplace violence awareness training.

Postal Service employees who do not receive this training may not be effective in
recognizing, preventing, and responding to violent and potentially violent situations. In
addition, TAT members that are not adequately trained may not be effective in
establishing or administering violence prevention and response programs to reduce the
risk of violence in the workplace.

Corrective Action

The Postal Service Headquarters EAP/Workplace Environment Improvement (WEI)
Office established a web-based TAT Membership and Meeting Tool to ensure TAT core
members receive the required training in accordance with the TAT Guide. Effective
March 2007, each PC is required to timely update the information for their TAT core
members.




3
  TAT core members include the HR manager or designee, labor relations manager, medical director or occupational
health nurse administrator (OHNA), district manager or designee, and lead plant manager or designee.
4
  A 204b supervisor is a bargaining employee detailed to an acting supervisor position.


                                                       4
The Postal Service’s Violence Prevention and                                                 HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters



Recommendations

We recommend the Vice President, Northeast Area Operations:

    3. Notify the Albany, Boston, Massachusetts, and New Hampshire/Vermont
       Performance Cluster managers that workplace violence awareness training is a
       fiscal year mandatory requirement, and it is their responsibility to ensure training
       occurs, preferably during non-peak operational periods.

    4. Direct the xxxxxx Performance Cluster and Human Resources managers to
       attend the 2-day threat assessment team orientation class as soon as possible.

    5. Direct the xxxxxxxxxxxxxxxxxxxxx Performance Cluster managers to ensure the
       occupational health nurse administrator attends the 2-day threat assessment
       team orientation class as soon as possible.

    6. Direct the Albany, Boston, Massachusetts, and New Hampshire/Vermont
       Performance Cluster managers to determine which managers, supervisors, and
       204b supervisors have not received the 8-hour (one-time) workplace violence
       awareness training, and provide the training as soon as possible.

    7. Instruct the Albany, Boston, Massachusetts, and New Hampshire/Vermont
       District Managers to:

         •    Remind Human Resources managers of their responsibility to conduct
              periodic reviews (at least quarterly)5 to determine if management has met the
              mandatory workplace violence awareness training requirements for all
              employees (including 204b supervisors) and threat assessment team
              members.

         •    Implement a control to ensure Human Resources managers conduct periodic
              reviews to determine which managers and supervisors did not receive the
              violence awareness training.

Strategies to Enforce Postal Service Policy Not Fully Implemented

The Albany, Boston, and New Hampshire/Vermont TATs did not fully implement
violence prevention strategies to ensure incidents of violent and inappropriate behavior
were fully addressed in accordance with the TAT Guide. We identified 916 incidents
reported to the four TATs in FY 2006 and determined that 14 of them were not properly
addressed in accordance with the TAT Guide.


5
  Quarterly reviews would provide sufficient time to schedule employees for training within the fiscal year it is
required.
6
  We reviewed 42 Albany, seven Boston, 33 Massachusetts, and nine New Hampshire/Vermont PC incidents.


                                                            5
The Postal Service’s Violence Prevention and                        HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

Opportunities to prevent a violent incident from occurring diminish when management
does not fully implement violence prevention strategies to properly address potentially
violent incidents. In addition, management needs to appropriately and immediately
respond to potentially violent incidents. For example, VOE Survey quarterly reports for
the three PCs indicate many employees were concerned they were working in an
unsafe environment and could be victims of physical violence.

Recommendations

We recommend the Vice President, Northeast Area Operations:

    8. Remind the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Performance Cluster
       managers of their responsibility to ensure threat assessment teams comply with
       the Threat Assessment Team Guide when responding to and resolving incidents
       of violent and inappropriate behavior.

    9. Direct the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Performance Cluster
       managers to implement a control to ensure threat assessment teams comply with
       the Threat Assessment Team Guide when responding to and assessing reports
       of potentially violent situations and inappropriate behavior.

    10. Direct the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx threat assessment teams
        to review the incidents that had insufficient supporting documentation and determine
        if they were resolved in accordance with the Threat Assessment Team Guide.

Environment and Culture Strategy — Create a work setting and maintain an
atmosphere perceived to be fair and free from unlawful and inappropriate
behavior.

Monitoring and Evaluating Workplace Climate Indicators

The four PC HR managers took positive steps toward creating an atmosphere
perceived to be fair and free from unlawful and inappropriate behavior. For example,
they disseminated zero tolerance policies to all employees and provided some formal
employee training. The HR managers also monitored and evaluated VOE Survey
scores and focus groups, numbers of grievances and Equal Employment Opportunity
(EEO) complaints, close communications with union representatives and EAP
consultants, and regular meetings of the Executive Safety and Health committee to
identify events that could escalate the potential for violence. However, the managers
did not document how (or how often) they monitored and evaluated climate indicators,
other than their quarterly monitoring and evaluation of the VOE Survey results.

Effective monitoring can create a work setting and atmosphere that is perceived to be
fair and free from unlawful and inappropriate behavior. For example, documenting the
evaluation of climate indicators from previous quarters allows management to identify
trends and hotspots to reduce the potential for violence. While the VOE Survey is an


                                               6
The Postal Service’s Violence Prevention and                                              HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

important indicator of the workplace climate, it only reports results at the facility level
when 10 or more employees respond. In that regard, the VOE Survey should not be the
only climate indicator documented because it does not represent all facilities.

In addition, we reviewed 13 complaints the OIG Hotline received during FY 2006 and
found that some employees in these PCs reported workplace environment issues.
Some of these employees sent their workplace environment complaints to the OIG
because they believed they had exhausted all avenues for resolution in their workplace.
We believe employees could view work sites where management proactively moderates
the risk of violent situations as the agency’s commitment to the zero tolerance policy.

Recommendation

We recommend the Vice President, Northeast Area Operations:

      11. Direct the Albany, Boston, Massachusetts, and New Hampshire/Vermont
          Performance Cluster managers to ensure the threat assessment teams
          document their evaluations of climate indicators to identify trends and potential
          hotspots.

Team Process and Performance Measures Could be Improved

TAT Members, Meetings, and Minutes

The xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx TATs had the requisite number and type of
team members; however, the xxxxxxxxxxxxxxxxxxxxx TAT did not. The xxxxxx, xxxxxx,
xxxxxxxxxxxxxxxxxxxxxxxxx TATs did not consistently conduct quarterly7 meetings and
properly prepare and disseminate minutes, but the xxxxxxxxxxxxx TAT did.

A TAT that does not conduct and properly document its meetings runs the risk of not
achieving the TAT’s primary mission – preventing workplace violence.

Corrective Action

The TAT Membership and Meeting Tool should help to ensure that management
conducts and documents TAT meetings, and disseminates meeting minutes in
accordance with the TAT Guide. Effective March 2007, each PC is required to timely
update the information for their TAT.

Recommendations

We recommend the Vice President, Northeast Area Operations, direct the Albany,
Boston, and New Hampshire/Vermont Performance Cluster managers to:


7
    The Postal Service modified the TAT Guide in March 2007 to require meetings twice a quarter.


                                                           7
The Postal Service’s Violence Prevention and                       HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

    12. Remind the xxxxxxxxxxxxxxx managers of their responsibility to conduct
        meetings, and properly document and disseminate the minutes to the
        appropriate threat assessment team members.

We also recommend the Vice President direct the xxxxxxxxxxxxxxxxxxxxx Performance
Cluster managers to:

    13. Ensure the threat assessment team has the requisite number and type of threat
        assessment team members.

TAT Performance Measures

The Albany, Boston, Massachusetts, and New Hampshire/Vermont HR managers
stated they implemented informal performance measures such as TAT discussions to
gauge whether the TATs were successful or needed to change their processes.
However, management did not document the measures and the measures may not be
adequate.

TATs cannot provide assurance that their efforts to prevent violent incidents in the
workplace were successful or needed improvement when the measures used are not
documented. In addition, using the primary measures suggested in the TAT Guide may
provide more useful information to identify areas for TAT improvement.

Recommendation

We recommend the Vice President, Northeast Area Operations, direct the Albany,
Boston, Massachusetts, and New Hampshire/Vermont Performance Cluster managers
to:

    14. Implement controls to ensure threat assessment teams document the processes
        used to measure the teams’ performance, as required by the Threat
        Assessment Team Guide, and ensure the measurements used are adequate for
        determining success and identifying areas for improvement.

Oversight of the Workplace Violence Prevention Program

Our review of TAT activities indicated the Albany, Boston, Massachusetts, and New
Hampshire/Vermont PC and Northeast Area HR managers did not provide adequate
oversight of the violence prevention and response programs. The PC managers did not
ensure the four TATs implemented many of the required policies and procedures to
reduce the potential for violence related to security, communication of policy, and the
environment and culture. The xxxxxxxxx managers also did not ensure TATs followed
appropriate processes and documented performance measures.

Adequate oversight at the area and PC levels could reduce the potential for violence.
Specifically, when TATs do not follow important workplace violence prevention and


                                               8
The Postal Service’s Violence Prevention and                         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

response program policies and procedures, the teams may not be fully effective in
reducing the potential for violence.

The internal controls recommended in this report for the Albany, Boston,
Massachusetts, and New Hampshire/Vermont xx managers, if implemented, should
provide sufficient oversight of the TATs at the xx level. As a result, we have no
additional recommendations for PC managers regarding communication of policy and
environment and culture strategies.

Recommendations

We recommend the Vice President, Northeast Area Operations:

    15. Implement an internal control to ensure Northeast Area Performance Cluster
        managers provide adequate oversight of their threat assessment teams to
        improve the effectiveness of the violence prevention and response programs.
        For example, performance cluster managers could provide the area vice
        president with an annual certification that the teams are conducting business in
        accordance with the Threat Assessment Team Guide and related Postal Service
        policies.

    16. Determine if the findings in this report exist in the remaining Northeast Area
        Performance Clusters – Connecticut, Maine, Southeast New England, and
        Western New York – and, where necessary, take action to ensure management
        implements adequate controls.

Management’s Comments

Management did not clearly state whether they agreed or disagreed with the report
findings and non-monetary impact. Included in management’s response are comments
from headquarters, who partnered in their response, noting areas where they disagreed
with the findings. In addition, management did not initially agree to implement some of
the recommendations. However, in subsequent correspondence, management agreed
to implement all 16 recommendations, agreed with the non-monetary impact, and
provided descriptions of actions taken and planned. For example, management
provided a copy of a form requiring district managers to certify annually to the Northeast
Area Vice President, that their TATs are conducting business in accordance with the
TAT Guide and they have completed workplace violence awareness training.

Management also provided detailed points regarding some of the findings and
recommendations 1, 3, 8 through 11, 14, and 15. We have included management’s
comments, in their entirety, in Appendix J, and have summarized their detailed points in
Appendix K.




                                               9
The Postal Service’s Violence Prevention and                        HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters



Evaluation of Management’s Comments

Management’s agreement to implement all 16 recommendations is responsive and the
actions taken or planned should correct the issues identified. We do not agree,
however, with some of management’s comments. Our response to specific points
made in management’s comments are included in Appendix K.

The OIG considers the district’s annual TAT certification form and copies of training
records and updated zero tolerance policy statements sufficient documentation to close
significant recommendations 1, 2, 4 through 7, 13, 15, and 16.

The OIG considers recommendations 3, 9, 10, 11, and 14 significant and, therefore,
requires OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations should
not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Chris Nicoloff,
Director, Human Capital, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:     Mary Anne Gibbons
        Doug A. Tulino
        J. Stan Pullen
        James H. Adams
        Charles K. Lynch
        John W. Powers III
        Margaret A. Weir
        Sandra J. Savoie
        Katherine S. Banks




                                               10
The Postal Service’s Violence Prevention and                      HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters



                                    APPENDIX A. ACRONYMS

ASAP            Area Security Assessment Program
ASM             Administrative Support Manual
EAP             Employee Assistance Program
EEO             Equal Employment Opportunity
FOIA            Freedom of Information Act
FY              Fiscal Year
HR              Human Resources
NTD             National Training Database
OIG             U.S. Postal Service Office of Inspector General
OHNA            Occupational Health Nurse Administrator
OSHA            Occupational Safety and Health Administration
OSH Act         Occupational Safety and Health Act
PC              Performance Cluster
TAT             Threat Assessment Team
VOE             Voice of the Employee
WebEIS          Web-Enabled Enterprise Information System
WEI             Workplace Environment Improvement
WIA             Workplace Improvement Analyst




                                               11
The Postal Service’s Violence Prevention and        HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters



 APPENDIX B. JOINT STATEMENT ON VIOLENCE AND BEHAVIOR IN
                      THE WORKPLACE




                                               12
The Postal Service’s Violence Prevention and                                               HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters



         APPENDIX C. OBJECTIVES, SCOPE, AND METHODOLOGY
The overall objective of this audit was to determine if the Postal Service’s violence
prevention and response programs in selected locations were effective in reducing the
potential for violence. Specifically, we determined whether (1) the Albany, Boston,
Massachusetts, and New Hampshire/Vermont PCs implemented required controls
(policies and procedures) to reduce the potential for violence and (2) the level of
oversight of the workplace violence prevention program at the area and PC levels was
adequate.8

To evaluate the workplace violence prevention and response programs in the Northeast
Area, we judgmentally selected the Albany, Boston, Massachusetts, and New
Hampshire/Vermont PCs from the eight PCs in the Northeast Area. We selected these
PCs based on an analysis of seven workplace environment climate indicators for FYs
2004 through 2006.9 We took steps to ensure the sample was representative of PCs
where the indicators show the climate was good and where the climate was troubled.
We also considered whether the PC appeared on the Postal Service’s troubled worksite
list10 and whether the OIG conducted prior workplace environment audits in the PCs.
Finally, we included PCs where the OIG Inspection Service and Facilities Directorate
was auditing the Postal Service’s security controls and processes to determine if the
PCs complied with the key strategy related to security.

We interviewed the PCs’ HR, Labor Relations, and Training managers; the Workplace
Improvement Analysts (WIA); and the area’s HR manager to determine whether (1) the
selected PCs had implemented required controls to reduce the potential for violence
and (2) Postal Service internal controls existed to provide adequate oversight of the
program at the area and PC levels. These interviews were also used to determine
whether Postal Service internal controls existed to provide adequate oversight of the
program at the area and PC levels. We also reviewed the TAT meeting minutes and
reports used to monitor and enforce polices and procedures to reduce violence in the
workplace. In addition, we reviewed the TAT Guide, the ASM, the Joint Statement, and
the OSHA “General Duty” clause to provide a safe and healthful working environment
for all workers covered by the OSH Act of 1970.

We also reviewed the following data and information pertaining to the PCs’ activities
related to the violence prevention and response program:

    •    Zero tolerance policies and action plans.
    •    VOE Vital Few List.11

8
  We will address oversight at the headquarters level in a separate report.
9
  The seven climate indicators are the VOE Survey scores, grievances, EEO complaints, EAP referrals, climate
assessments, OIG Hotline complaints, and OIG congressional inquiries regarding workplace environments.
10
   Troubled worksites are facilities where evidence exists of an ongoing history of behavioral factors that remain
unresolved at the PC and area levels.
11
   The VOE Vital Few List identifies PC facilities with the largest opportunity for VOE Survey score improvement.


                                                          13
The Postal Service’s Violence Prevention and                                             HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

     •   Attendance records for required workplace violence awareness training.
     •   TAT incident reports and responses.
     •   Stand-up talks and direct mailings to employees related to zero tolerance policies
         and action plans.
     •   Numbers of grievances and EEO complaints.
     •   Numbers of assaults and credible threats.
     •   HR managers’ and staff roles and responsibilities in the workplace violence
         prevention and response programs.

Although we relied on data obtained from the EEO Complaints Tracking System,
Grievance Arbitration Tracking System, Inspection Service Integrated Information
System, National Training Database (NTD), payroll database, and the Web-Enabled
Enterprise Information System (WebEIS), we did not test the validity of the data and
controls over the systems. We believe the computer-generated data was sufficiently
reliable to support the opinions and conclusions in this report.

We conducted this performance audit from December 2006 through January 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances.12 Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 14, October 3, and
December 17, 2007, and included their comments where appropriate.




12
   For example, we reviewed internal controls related to the posting and dissemination of PC zero tolerance
statements, FY 2006 workplace violence awareness training records, TAT incident case files, climate indicators used
to monitor and evaluate PC workplace environments, TAT meeting frequency and minutes, and performance
measures used to evaluate TAT performance.


                                                        14
The Postal Service’s Violence Prevention and                       HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

                      APPENDIX D. PRIOR AUDIT COVERAGE
The OIG report titled Postal Inspection Service Security Controls and Processes - Area
Security Assessment Program (Report Number SA-AR-07-004, dated July 10, 2007)
indicated management did not effectively and efficiently use the ASAP to assess Postal
Service security and compliance with security policies and procedures. Specifically,
management developed and implemented the national standardized ASAP without
guidance or approval from the Postal Inspection Service, which has primary
responsibility for security at the Postal Service. As a result, Postal Service
management used its own personnel to conduct ASAP reviews, the results of which the
Postal Inspection Service did not take into account when assessing security operations.
Additionally, Postal Service management expended approximately $144,000 on the
ASAP database, however, the information in the database was not reliable. We
recommended and management agreed to discontinue the use of the ASAP given that
the Postal Inspection Service does not use the results to assess security operations in
the Postal Service, and it is similar to security reviews the Postal Inspection Service
currently performs.




                                               15
The Postal Service’s Violence Prevention and                                                                          HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

         APPENDIX E. ALBANY, BOSTON, MASSACHUSETTS, AND NEW HAMPSHIRE/VERMONT
        PERFORMANCE CLUSTERS’ CONDITIONS AND CAUSES RELATED TO AUDIT OBJECTIVES

Objective 1 – Determine if the PCs implemented required controls (policies and procedures) to reduce the potential for
              violence.
1. Security Strategy - Ensure appropriate safeguards for employees, customers, and
   property.
Condition    PCs may not have ensured appropriate security safeguards were in place and complied with
                                                                                                          X   X   X            X
             at many facilities.
             •   xxxxxxxxxxxxxxxxxxxx did not maintain documentation that showed how the security
                 deficiencies identified in 909 FY 2006 ASAP reviews were corrected. For example, the
                 reviews identified exterior doors/access points to facilities were not secured (79       X   X   X            X
                 deficiencies), and unauthorized access to the facilities were not challenged (29
                 deficiencies).

Cause        Management did not require installation heads to certify they had corrected deficiencies.    X   X   X            X

2. Communication of Policy Strategy – Consistently communicate and enforce Postal Service policy
   regarding violent and inappropriate behavior.
Condition    PCs disseminated FY 2006 current local zero tolerance policies to all PC employees through
                                                                                                          9   9   9            9
             stand-up talks and new employee orientation classes.
             Some communication improvements are needed.                                                  X   X   X            X
             •    The zero tolerance policy was not posted in eight of the 13 facilities visited.         X   X   X            9
             •    The zero tolerance policy was not signed by the xxxxxxxxxxxxxxxxxxx.                    9   9   X            X


Cause        Facility was renovated and policy had not been reposted.                                             X
             Facility manager did not know why the policy was not posted.                                 X
             Facility manager stated the policy was not posted due to an oversight.                       X
             xxxxxxxxxxxxxxxxxxx believed the policy was posted at all the facilities.                    X   X
             xxxxxxxxxxxxxxxx believed the policy was posted on a bulletin board in the employee break
                                                                                                                  X
             room.
             Xx xxxxxxxx believed the xxxxxxxxxxxxxxxxxxxx signatures were not required.                          X            X
Note:   X indicates the xx was not in compliance and the cause for non-compliance.
        9 indicates the xx was in compliance.
          no symbol indicates not applicable.




                                                                                       16
The Postal Service’s Violence Prevention and                                                                                                           HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

2. Communication of Policy Strategy (Continued) – Consistently communicate and enforce
   Postal Service policy regarding violent and inappropriate behavior.
Condition     Workplace violence awareness training needed for some employees and TAT core members.                X            X                X                 X
              •  xxxxxxxxxxx ensured most employees (31,763) received the required training.                       9            9                9                 9
              •  xxxxxxxxxxx ensured all TAT core members received the required training.                          X            9                9                 X
              •  Xxxxxxxxxx managers did not ensure all managers, supervisors, and 204b supervisors
                                                                                                                   X            X                X                 X
                 received the required 8-hour (one time) workplace violence awareness training.

Cause         xxmanagers believed employees completed the 8-hour violence awareness training; however,
              some training was not recorded or the training records did not indicate if employees completed                                     X                 X
              the training.
              *xx managers did not schedule the 8-hour violence awareness training because it was not
                                                                                                                   X            X
              included in the FY 2006 headquarters list of mandatory training requirements.
              TAT was unaware the OHNA is a required TAT core member.                                                                                              X
              xxxxxxxxxxxxxxxxxx were not available when the training was offered.13                               X

Condition    TATs did not fully implement violence prevention strategies to ensure incidents of violent and
                                                                                                                   X            X                9                 X
             inappropriate behavior were fully addressed in accordance with TAT Guide.
             •   14 incidents reported to TATs in FY 2006 were not properly addressed (77 were).                   X            X                9                 X
                 ¾ 5 did not receive proper case management (including documenting the assessment of
                                                                                                                   9            X                9                 X
                      the risk level)14 and were not monitored and tracked to ensure resolution (9 were).
                 ¾ 10 had no documented risk abatement plans (4 did).                                              9            X                9                 X
                 ¾ 1 was not immediately and firmly respond to (13 were).                                          X            9                9                 9
             •   Incident tracking logs not properly maintained to show when 84 of the 91 incidents were
                                                                                                                   X            9                X                 X
                 reported and resolved.
*These are headquarters issues we will address in a capping report.




13
   The xxxxxxxxxxxxxxxx managers did not complete the required TAT orientation class because the xxxxxxxxxxxxxxxxxxxxxxxx were attending a conference, and the
xxxxxxxxxxxxxxxxxxx was in charge during the xxxxxxxxxxxxxxxxxx absence.
14
   The TAT Guide defines the priority risk levels as priority 1 - extreme risk; priority 2 - high risk; priority 3 - low or moderate risk; and priority 4 - no risk.


                                                                                    17
The Postal Service’s Violence Prevention and                                                                                              HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters


2. Communication of Policy Strategy (Continued) – Consistently communicate and enforce
   Postal Service policy regarding violent and inappropriate behavior.
Cause            xxxxxxxxxxx did not fully understand the importance of TAT responsibilities.                        X            X   X            X
                 •   xxxxxxxxxxx believed that, despite findings on 14 incidents, TATs handled incidents
                                                                                                                     X                             X
                     appropriately.
                 •   xxxxxxxxxx was not aware of incident tracking performed by previous xxxxxxxxxxx.                             X
                 •   xxxxxxxxxxx were not aware of the requirement to keep a tracking log.                                            X            X

3. Environment and Culture Strategy – Create a work setting and maintain an atmosphere
   perceived to be fair and free from unlawful and inappropriate behavior.
Condition        xxxxxxxxxxx took positive steps toward creating an atmosphere perceived to be fair and free
                                                                                                                     9            9   9            9
                 from unlawful and inappropriate behavior.
                 •   xxxxxxxxxx used VOE Survey results, grievances, EEO complaints, close
                     communications with unions and EAP consultants, and regular meetings with the
                                                                                                                     9            9   9            9
                     Executive Safety and Health committee as climate indicators to identify and follow-up on
                     events that could escalate the potential for violence
                 Some improvements are needed.                                                                      X             X   X            X
                 •   xxxxxxxxxxx did not maintain documentation on how they used other climate indicators to
                     monitor and evaluate the workplace environment (including the frequency) except for             X            X   X            X
                     VOE Survey results.

Cause            xxxxxxxxxxx considered evaluations of the VOE Survey results sufficient documentation of
                                                                                                                     X            X   X            X
                 workplace climate indicators.

Condition        TATs did not always conduct quarterly meetings, properly prepare meeting minutes, and
                                                               15                                                    X            X   9            X
                 disseminate minutes to required TAT members.
                 TATs had the requisite number and type of team members required by the TAT Guide.                  9             9   9            X

Cause            Informal discussions were held on an as needed basis relative to TAT activities.                    X            X
                 xxxxxxxxxx believed summarizing the incident to include the necessary follow-up actions in an
                                                                                                                                                   X
                 email to TAT members was equivalent to preparing and disseminating meeting minutes.
                 xxxxxxxxxx was not aware the lead plant manager and OHNA were required TAT core
                                                                                                                                                   X
                 members.




15
     The xxxxxx TAT conferred on a daily and weekly basis through email and teleconferences, which is more frequent than quarterly.


                                                                                      18
The Postal Service’s Violence Prevention and                                                                           HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters


3. Environment and Culture Strategy – Create a work setting and maintain an atmosphere
   perceived to be fair and free from unlawful and inappropriate behavior.
Condition    Measures to gauge TATs’ success were not documented and may not have been adequate.           X   X                X
             •   TATs informally used TAT discussions and reviews of VOE Surveys.                          9   9   9            9
             •   TATs did not document informal measurements.                                              X   X                X
             •   TAT informally measured its performance by using risk abatement plans and evaluating              X
                 the incidents during TAT meetings.

Cause        TATs believed the informal measures accomplished the intended purpose.                        X   X   X            X

Objective 2 – Determine the adequacy of oversight of the workplace violence prevention program at the area and PC
              levels.
Oversight of the Workplace Violence Prevention and Response Program
Condition    xxxxxxxxxxxxxxxxxxxxxxx did not provide adequate oversight of the violence prevention and
                                                                                                           X   X   X            X
             response programs.
             •   xx managers did not ensure TATs implemented many required policies and procedures to
                 reduce the potential for violence related to security, communication of policy, and the   X   X   X            X
                 environment and culture.
             •   xx managers did not ensure that appropriate TAT processes were followed and
                                                                                                           X   X   X            X
                 performance measures were documented.

Cause        xxxxxxxxxxxxxxx relied on xxxxxxxxxxxxxx to ensure compliance with the TAT Guide
                                                                                                           X   X   X            X
             requirements.




                                                                                 19
The Postal Service’s Violence Prevention and               HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters


          APPENDIX F. ALBANY PERFORMANCE CLUSTER
   FISCAL YEAR 2006 VOICE OF THE EMPLOYEE SURVEY RESULTS
   FOR QUESTIONS RELATED TO THE WORKPLACE ENVIRONMENT




                                                Redacted




* xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  20
Postal Service’s Violence Prevention and                   HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

  APPENDIX G. BOSTON PERFORMANCE CLUSTER FISCAL YEAR
2006 VOICE OF THE EMPLOYEE SURVEY RESULTS FOR QUESTIONS
         RELATED TO THE WORKPLACE ENVIRONMENT




                                                Redacted




* xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  21
Postal Service’s Violence Prevention and                   HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

      APPENDIX H. MASSACHUSETTS PERFORMANCE CLUSTER
   FISCAL YEAR 2006 VOICE OF THE EMPLOYEE SURVEY RESULTS
   FOR QUESTIONS RELATED TO THE WORKPLACE ENVIRONMENT




                                              Redacted




* xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  22
Postal Service’s Violence Prevention and                   HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

     APPENDIX I. NEW HAMPSHIRE/VERMONT PERFORMANCE
   CLUSTER FISCAL YEAR 2006 VOICE OF THE EMPLOYEE SURVEY
     RESULTS FOR QUESTIONS RELATED TO THE WORKPLACE
                       ENVIRONMENT




                                              Redacted




* xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  23
Postal Service’s Violence Prevention and            HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters

                          APPENDIX J. MANAGEMENT’S COMMENTS




                                            24
Postal Service’s Violence Prevention and         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                            25
Postal Service’s Violence Prevention and         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                            26
Postal Service’s Violence Prevention and         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                            27
Postal Service’s Violence Prevention and         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                            28
Postal Service’s Violence Prevention and         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                            29
Postal Service’s Violence Prevention and         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                            30
Postal Service’s Violence Prevention and         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                            31
Postal Service’s Violence Prevention and         HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                            32
The Postal Service’s Violence Prevention and        HM-AR-08-005
 Response Programs in Four Northeast Area
 Performance Clusters




                                               33
        The Postal Service’s Violence Prevention and                                                                                       HM-AR-08-005
         Response Programs in Four Northeast Area
         Performance Clusters

                        APPENDIX K. MANAGEMENT’S DETAILED POINTS AND OIG’s RESPONSE

   Finding or                    Management’s Comments                                                          OIG’s Response
Recommendation
    Number
Security Strategy       Management implied that we used the VOE Survey          We did not use the VOE Survey as a mechanism to track security infractions or
Finding                 as a mechanism to track security infractions and        actions taken or not taken to address workplace deficiencies. We used the survey as
                        actions taken or not taken to address workplace         an indicator of how career employees who responded to the survey felt about their
                        deficiencies. Management stated the response            workplace environment. We disagree with management that the response rate for the
                        rate for the VOE Survey was a critical piece of         VOE Survey was missing from the report and that our statement in the report
                        information that we did not include in the report and   “numerous employees were concerned” is inaccurate. Appendices F through I
                        that our statement that “numerous” employees            provide information on the results of the FY 2006 VOE Survey for each of the four
                        were concerned that unauthorized individuals could      PCs. Each appendix contains the number of employees from each PC that
                        gain access to their facilities was not accurate.       responded to the survey. Our calculations indicate that 2,679 of the approximately
                                                                                15,370 employees that responded to the survey responded negatively to the
                                                                                statement that access to their building is allowed through a system or procedure that
                                                                                keeps unauthorized individuals from entering. We believe this is adequate support
                                                                                that numerous employees were concerned.

Recommendation 1        Management agreed to implement the                      We do not agree. The guide requires that employees be educated on their local TAT
                        recommendation, but stated there is no TAT Guide        systems and processes to support zero tolerance. The guide lists a number of
                        requirement or other precedent that they must post      methods the PCs can use, including wall postings. According to management in the
                        zero tolerance policies.                                four PCs, posting the zero tolerance policy in all facilities was a PC requirement.

Recommendation 3        Management initially stated there were no               In subsequent correspondence, management acknowledged that other training
                        mandatory, specific FY 2007 and 2008 workplace          programs address the need to provide a workplace free of conflict through topics like
                        violence awareness training requirements.               “Dignity & Respect.” Management stated that all Northeast Area districts completed
                                                                                these mandatory training requirements for FY 2007 and they are aware of the FY
                                                                                2008 training requirements. In addition, management included in the district manager
                                                                                TAT Guide certification form the requirement that managers, supervisors, 204b
                                                                                supervisors, and TAT members receive the required training.

Recommendation 8        Management stated the audit report and Appendix         We disagree with each of management’s assertions. First, Appendix E clearly shows
                        E were not clear as to what requirements they did       that management did not properly maintain incident tracking logs to show when 84 of
                        not meet that resulted in improper case                 the 91 cases were reported and how they were resolved. Appendix E also shows that
                        management. Management also stated it was not           14 incidents were not properly addressed because the risk level was not assessed on
                        clear how we measured whether the TAT                   five of them and 10 had no risk abatement plans. In addition, the audit report clearly
                        “immediately & firmly” responded to incidents and       states that improper case management diminishes the opportunities to prevent a
                        that they were uncertain of the scope of the            violent incident from occurring.


                                                                                 34
       Postal Service’s Violence Prevention and                                                                                             HM-AR-08-005
        Response Programs in Four Northeast Area
        Performance Clusters

   Finding or                  Management’s Comments                                                           OIG’s Response
Recommendation
    Number
                      deficiencies and the impact to the process.
                      Management also implied that we used the VOE            Second, management’s claim that it was not clear how we measured whether the
                      Survey to measure the management of the TAT             TATs “immediately & firmly” responded to the incidents is without merit. We advised
                      process and stated it was not a valid indicator.        management on August 14, 2007, that we defined “immediately” as action taken right
                      Finally, management stated they provided us             away or a response made without a loss of time, and by “firm” we meant an action
                      copies of all the cases in the Albany District on       that was steadfast, fixed and not subject to change. Management told us on
                      three different occasions during the audit process.     December 14, 2006, that they define “immediately and firmly” as action that is
                                                                              consistent and taken right away. In addition, we provided our analysis of the TAT
                                                                              case files to management on September 19, 2007, so they could identify why the 14
                                                                              incidents were not fully addressed in accordance with the TAT Guide.

                                                                              Finally, the xxxxxx District provided copies of case documents to us sporadically
                                                                              throughout the audit process, beginning with incomplete case files early in the audit.
                                                                              As we reviewed the case files and determined that some were incomplete we notified
                                                                              management, resulting in their mailing additional (not the same) information to us at
                                                                              least twice.

Recommendation 9      Management initially stated only the xxxxxxxxxx         Management agreed, in subsequent correspondence, that the xxxxxx PC would also
and 10                xxxxxxxxxxxxxxxxxxxxx Districts would model the         model the Massachusetts District’s process.
                      Massachusetts District’s process for responding to
                      and assessing reports of potentially violent
                      situations and inappropriate behavior.

Recommendation 11     Management stated there is no TAT Guide                 We do not agree there is no TAT requirement to document how and when xx
                      requirement or other precedent that xx managers         managers evaluate and monitor climate indicators. While the guide does not
                      must document how and when they evaluate and            specifically state management must document the evaluation and monitoring of
                      monitor climate indicators. Management said the         climate indicators, it does state the TAT is responsible for evaluating the climate
                      lack of documentation did not automatically equate      indicators and must discuss their responsibilities — including incident work site
                      to a lack of action or failure to meet a requirement.   monitoring — at quarterly meetings. The guide further requires TATs to document
                      Management stated that all workplace environment        their quarterly meetings (minutes). We also do not agree that workplace environment
                      data is contained in electronic databases that          data in electronic databases is adequate documentation to support evaluation and
                      generate reports including the iComplaints system       monitoring. It is the analysis of the data to identify trends and potential hotspots that
                      for EEO data and the Grievance Arbitration              is important. We do agree with management that the lack of documentation does not
                      Tracking System for grievance data.                     automatically equate to a lack of action or failing to meet a requirement. Thus, our
                                                                              report gave xx managers credit for taking positive steps to monitor and evaluate these
                                                                              climate indicators. The lack of documentation, however, makes it difficult for the



                                                                               35
       Postal Service’s Violence Prevention and                                                                                          HM-AR-08-005
        Response Programs in Four Northeast Area
        Performance Clusters

   Finding or                  Management’s Comments                                                         OIG’s Response
Recommendation
    Number
                                                                            TATs to review and validate their efforts and for others to independently assess their
                                                                            efforts.

Recommendation 14     Management stated the recommendation was              We do not agree. The recommendation specifically states that TATs document the
                      vague, provided no reference to a requirement,        processes used to measure performance, as required by the TAT Guide. The guide
                      and did not indicate how the TAT could measure        states they must measure their performance and provides a number of measurement
                      and provide assurance that their efforts to prevent   devices such as local or district tracking systems, post-incident analysis, and a review
                      violent incidents in the workplace were successful    of climate indicators. While we agree that measuring incidents that did not happen
                      or needed improvement. Management stated the          would be difficult, it is possible to measure TAT performance. We believe the
                      recommendation failed to take into account that it    measures outlined in the TAT Guide can assist in this effort.
                      is impossible to measure success because they
                      cannot measure incidents that do not happen.

Recommendation 15     Management stated the recommendation did not          We do not agree. As stated in the report, our review of TAT activities also found
                      relate to any additional findings or failures.        inadequate oversight at the area level that we believe contributed to the four TATs not
                                                                            implementing many of the required policies and procedures and not following
                                                                            appropriate processes. Specifically, adequate oversight at the area level can reduce
                                                                            the potential for violence by helping to ensure that TATs follow important workplace
                                                                            violence prevention and response program policies and procedures.

Appendix E            Management also stated that our audit findings did    We do not agree. Appendix E lists the deficiencies we found related to the 14
                      not support our statement in Appendix E that xx       incidents, in addition to a number of policies and procedures not followed. We believe
                      managers did not fully understand the importance      the xx managers’ responses why these deficiencies occurred indicate they did not
                      of TAT responsibilities. Management considered        fully understand the importance of the TAT Guide requirements.
                      this statement and others to be contradictory and
                      inaccurate and, as such, requested the report not
                      be disclosed in response to Freedom of
                      Information Act (FOIA) requests.




                                                                             36
